i

4*.

,*r

f 2.0 f

No.
;
!

IN THE
SUPREME COURT OF THE UNITED STATES

In_rej_RAYMOND L. ROGERS, Pro se - PETITIONER ^ p. j,
r^,
'■< h

■’

vs.

L"j \J< i:I

HARTZ, BALDOCK AND GORSUCH. Cirr.nit Judges - RESPONDENTS

FILED
JUL 3 0 2020

ON PETITION FOR A WRIT OF MANDAMUS AND/OR
WRIT OF PROHIBITION TO

|j^PRFMCEFCOURTLyl!.

UNITED STATES TENTH CIRCUIT COflPT OF APPEALS
PETITION FOR WRIT OF MANDAMUS AND/OR PROHIBITION

RAYMOND L. ROGERS. Pro se
P.,0. BOX 3000-Medium
FORREST CITY, AR 72336

ISSUE PRESENTED FOR REVIEW

Your Petitioner is [requesting] and [praying] for this United
I

States Supreme Court to exercise its supervisory appellate
powers pursuant-to 28 U.S.C. § 1651(3) under the "All Writs
Act , to [command] Judge Bobby R. Baldock (hereinafter "Judge
Baldock") a Circuit Court Judge sitting on the Tenth Circuit
Court of Appeals three judges appellate panel whom ruled on
your Petitioner criminal direct appeals proceedings, to
[vacate]

the court s April 5, 2013, Order and Judgment, now

being challenged by way of this extraordinary remedy attached
hereto as Exhibits "A", and to retain jurisdiction of your
Petitioner s criminal direct appeals proceedings pursuant-to
28 U.S.C § 1291, and proceed to [first] properly ask and answer
the Articial III jurisdictional question concerning the Kansas
District Court s statutory criminal authority to prosecute and
punish your Petitioner for the crimes he was found guilty in
the Kansas District Court for violating
punished in a Federal Prison for.

(i)

and which he now sits

TABLE OF CONTENTS
Pages
OPINIONS BELOW

1

JURISDICTION..

1

STATEMENT OF THE CASE
FACTSARGUMENTS, AND LAW IN SUPPORT OF WRIT
PRAYER FOR RELIEF............ .. ....

2-5
5-12
12-13

INDEX TO APPENDIXES
EXHIBIT A: ORDER AND JUDGMENT OF JUDGE BOBBY R. BALDOCK'S
EXHIBII B:

DISTRICT

£

NO.
ROGERS V. UNITED STATES. Et. All, 6:10-CR-10186JTM/JWB
EXHIBIT C: (1). AUSA'S MOTION TO DISMISS FIRST SUPERSEDING
INDICTMENT
v

(2). JUDGE. J. THOMAS MARTEN'S NOVEMBER 28 2011
ORDER, DISMISSING GRAND JURY'S JME 21 2011
FIRST SUPERSEDING INDICTMENT
’
’
(3). COPY OF THE GRAND JURY'S JUNE 21 2011 pttjct
SUPERSEDING INDICTMENT BEFORE BEING DISMISSED

(iii)

!

LIST OF PARTIES

i

[X] All parties appear in the caption of the
case on the
cover page.
:

^ ^

Part^-®s D0 NOT appear in the caption of the
the cover page A list of all parties to the proceeding
* case on
m the court whose judgment is the subject of this
petition is as follows: \
:.
i.

•".I..

'.o :

' J-

-I

■

(ii)
I

!

i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF MANDAMUS
AND/OR PROHIBITION
Petitioner respectfully prays that
Writ of Prohibition issue

a Writ of Mandamus and/or

to review the judgment below.
OPINIONS BELOW

[X] For cases from a Federal Court:
The opinion of the United
States Court of Appeals for
the Tenth Circuit
Court' appears at Exhibit A_to the petition
and is reported at; United States v.
RAYMOND L. RPEERS 520
Fed. Appx727: 2018 u.S. Appy LEXIS 6Q5A;
No. 12-3125
TENTH CIRCUIT COURT OF APPEALST Aprin
5, 2013.

JURISDICTION
[X] For cases from a Federal Court:
The date on which the United States
Court of Appeals
decidedi my case was April 5. ?ni3.
[X] No petition for rehearing was timely filed in
my case.

The [jJurisdiction of
this United States Supreme Court's
is invoked under 28
U.S.C. § 1651(a) of the "All Writs Act".

1.

STATEMENT OF THE CASE
On December 1, 2010, your Petitioner -and his two co-defendants
were arrested without "probable cause" or an "arrest warrant".
On December 3, 2010, a two count criminal "complaint" was
founded against your Petitioner and his two co-defendants for the
violations of; (1). 18 U.S.C.. § 2113(a) "Unarmed Bank Robbery",
and..(2). 18 U.S.C. § 924(c)(1)(A) "Possession of a firearm in
furtherance of a crime of violence". (Exhibits B, docs. 1)'.
On December 7, 2010, your Petitioner and his two co-defendants
were indicted by a Federal Grand Jury for the violations of;
(1). 18 U.S.C. § 2113(a) "Unarmed:Bank Robbery", (2). 18 U.S.C.
§ 924(c)(1)(A) "Possession of-a Tirearm in furtherance of a crime
of violence, and (3). 18 U.S.C,. § 922(g) "Felon in possession of
a firearm". (Exhibits B, docs 12.).
Your Petitioner and his two co-defendants were "arraigned" .
on the Grand Jury's December 7, 2010, Original Indictment, on
December 13, 2010, at which point they plead "not guilty" to all
the counts contained in the indictment. (Exhibits B, docs. 21).
Once no favorable "plea" [negotiation could be reached
between your Petitioner and the attorney for the United States
of America, the attorney for the United- States of America returned
back before a setting Federal Grand Jury to seek a "[Fjirst
Super[sedjing Indictment, charging your Petitioner with three
additional charges for; (4). 18 U/S.C. § 2113(a) "Bank Robbery
Unarmed", (5).. 18 U.S.C. § 924(c)(1)(A) "Possession of a firearm
in furtherance of a crime of violence, and (6). 18 U.S.C. § 922(g)
"Felon in possession of a firearm". (Exhibits B, docs 54).
Your Petitioner was again "arraigned" on the Grand Jury's
2.

I

June 21, 2011,

[Fjirst Super[sed]ing Indictment", on July 6,
2011> before Magistrate Judge Karen M. Humphreys, at which
point he plead "not guilty" on all six counts now charged in
the Grand Jury's June 21, 20.11, First Superseding Indictment.
(Exhibits. B, docs 63).
After numerous other "Status Conferences" and other motions
filed by the United States of America,'
the AUSA for the United
States of America moved the Kansas District Court via
a "Motion
.to Dismiss" to [dismiss] the Grand Jury
s June 21, 2011, "[Fjirst
Superfsedjing Indictment. (Exhibits

B’»; docs 89). & (Exhibits ;c). ’
The Kansas, District Court,, on November 28 2011, issued an
.
Order [granting] the AUSA's.. November 28, 2011,
"Motion to
Dismiss" . (Exhibits B, docs 91) &.(Exhibits C).
Without the AUSA returning back before
a Federal Grand Jury
to seek a [new] indictment
agaist your Petitioner and his two
co-defendats after
just "[dismissing]" the only [vjalid federal
criminal charging instrument
against your Petitioner and his two
co-defendants your Petitioner .was
criminally tried in the Kansas
District Court before Judge J. Thomas Marten, and 12 jurors
(consisting of 12 white and 1 black

member)-- during a 3 day jury

trial which took place from‘November 29, 2011, through December 1,
2011. (Exhibits B, docs 91-104).
Your Petitioner was found guilty by the 12 jurors for the '
criminal violations of: (1). 18 U.S.C. § 2113(d) "Armed Bank
Robbery", (2).. 18 U.S.C. § 924(c)(1)(a) "Possession of
a firearm
in furtherance of a crime of violence", and (3). 18 U.S.C.
§ 922(g) Felon in possession of
a firearm after being a convicted

3.

-1-5

'

i

i

felon". (Exhibits B docs 98, jury instr.. No. 18-20).
On April 16, 2011, your Petitioner was sentenced to 234
months of imprisonment followed by a 5 years supervisory
probation period for the crimes he was found guilty by the 12
jurors on. (Exhibits B, docs 119-120).
On May 1, 2012, your Petitioner's trial counsel filed a
"Notice of Appeal" on behalf, of your Petitioner in the Kansas
District Court to challenge Judge J. Thomas Marten's April 17,
2012, judgment of conviction, in your Petitioner's criminal
case, to the Tenth Circuit Court ;of.. Appeals.. (Exhibits' B, docs
122-124).
After having an oral argument hearing in the Tenth Circuit
Court of Appeals before Judges .Hartz, Baldock, and Gorsuch-, the
three judges appellate panel "affirmed" the Kansas District Court's
234 months judgment of conviction in your Petitioner's criminal
case, on April 5, 2013. The Tenth Circuit Court of Appeals there­
after issued its mandate to the Kansas District Court. (Exhibits B,
docs 125-142).
No petition for "en banc" was filed in the Tenth Circuit
Court of Appeals challenging the Circuit Court.'s April 5, 2013,
Order and Judgment, nor has any petition for a Writ of Certiorari
in the United States .Supreme Court been filed to challenge the
Tenth Circuit Court of Appeals three judges appellate panel's
April 5, 2013, Order and Judgment.
Your Petitioner has filed numerous other post conviction
motions for relief from the Kansas District Court's criminal
judgment of conviction, yet he has been unsuccessful with gainning
any relief from the Kansas District Court or the Tenth Circuit
4.

Court of Appeals.

FACTS, ARGUMENTS, AND ..LAW IN
SUPPORT OF WRITS ISSUANCE
The facts, arguments, and law that
supports your Petitioner's
[request] and_ [prayer] for issuance of these
extraordinary
Writs of [Mandamus] and or [Prohibition]
to the Tenth Circuit
Court of Appeals to "[c]ommand"
Judge Baldock to [vacate] the
April 5, 2013, Order and Judgment, [affirming], on the merits,
the Kansas District Court 's- April 17, 2012, judgment of
conviction in your Petitioner's criminal
case is as follows;
After your Petitioner was tried, convicted,
and sentenced
in the Kansas District Court pursuant-to
a criminal prosecution
that took place without
a valid federal criminal [indictment in
violation of the United States
Constitution's Fifth and Sixth
amendments, in light of Judge J. Thomas Marten'
s November 28,
2011, Order, "[djismissing" the Grand Jury's June 21, 2011,
[F]irst Super[sedjing Indictment"

upon request of the AUSA's

November 28, 2011, "Motion to Dismiss",
your Petitioner through
his trial counsel moved the Tenth Circuit Court of
Appeals to
review the Kansas District Court s April 17, 2012, criminal
judgment of conviction. See Attachment (Exhibits A).
The Tenth Circuit Court of Appeals retained jurisdiction
of your Petitioner's criminal matter pursuant-to 28 U.S.C.S 1291
and held an "oral" argument hearing "on the merits"
of the issues
presented by your Petitioner s trial/appellate counsel in his
opening appeals brief. Although the
Tenth Circuit Court's three
5.

■ A\

judges appellate panel whom "affirmed" the Kansas District Court's
April 17, 2012, criminal judgment of conviction against your
Petitioner determined on the merits the questions raised by
your Petitioner's trial/appellate counsel in his opening appeals
brief, the three judges appellate panel "failed" to [first]
properly engage in an Articial III [jJurisdictional inquiry
before the panel proceeded to determine the merits-of the questions
raised by your Petitioner's trial/appellate counsel in his opening
appeals brief. See (Exhibits A).
In fact, a review of Judge Baldock's April 5, 2013, Order and
Judgment, attached as Exhibits "A" shows that the panel simply
"hypothesized" the Kansas District Court's Articial III statutory
[jJurisdictional limitations-based on the facts that; (1). a jury
convicted your Petitioner of robbing a federally-insured bank,
brandishing a firearm during the robbery, and possessing a firearm
after a felony conviction; (2). the Kansas District Court sentenced
your Petitioner to 234 months of imprisonment. See (Exhibits A).
Your Petitioner argues that these facts relied upon.by the
three judges panel in Judge Baldock's "procedural posture" in
the April 5, 2013, Order and Judgment, cannot be relied upon for
satisfying the Kansas District Court's Articial III [jJurisdiction
to criminally prosecute your Petitioner for the crimes he currently
stands sentenced in federal prison for.
The law is clearly established that all federal criminal
felony prosecutions must be preceded

by way of a Grand Jury's

presentment or indictment. See U.S. Cons. Amendment 5 ("[no]
person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
6.

-

Jury... nor shall be deprived of life, liberty,
or property,
without due process of law".). In other words,
a federal district
court's Articial III [jjurisdictional authority is statutory and
in all federal criminal
prosecutions, this statutory power is
vested to the district court upon the Government's filing of an
[injdictment and. the return of such indictment from a federal
Grand Jury. See 18 U.S.C. § 3231; also see Ex
parte Bain. 121 U.S.
.1, 30 L. Ed 849, 7 S. Ct.
781 (1887); also Stirone v. United
States. 361 U.S. 212, 80S. Ct. 270, 4 L.
Ed 2d 252 (1960);
also see Cotton v. United States. 152 L.

Ed 2d 860, 535 U.S. 625,

122 S. Ct. 1781 (2002)..
A review of the April 5, 2013, Order and Judgment, writen
by Judge Baldocfc further shows ti
that the three judge appellate
panel "[fjailed" to engage in an Articial III inquiry during
your
Petitioner's direct criminal aappeals review because the April 5,
2013, Order, and Judgment, is [absent] of the words "[indictjment"
°r "[jjurisdiction". Without the words "[indictjment" or
"[j Jurisdiction" present anywhere throughout the April 5,
2013,
Order and Judgment, how could the three judges panel actually know
what crimes your Petitioner was actually indicted by a federal
Grand Jury for violating? Regardless of what your Petitioner was
found guilty in the Kansas District Court for violating.
The "[aJbsence" of the words "[indictjment" or "[jJurisdiction"
spelled anywhere throughout the April 5, 2013, Order and Judgment,
xs a clear indication that the three judges appellate panel
"exceeded" its authority on appeal by determining the merits of
claims raised by your Petitioner s appellate counsel in his
7.

f,
■

2.

opening brief, before the appellate panel [first] engaged in an
Articial III [jJurisdictional inquiry concerning the lower Kansas
District Court's criminal statutory [jJurisdiction in your
Petitioner!s criminal case. See (Exhibits A).
This United States Supreme Court held in Steel Co

that "the

requirement that [jJurisdiction be established as a [thresjhold
matter 'springs from the nature and limits of the judicial power
of the United States' and 'is inflexible and without exception'."
The court further held that "[onj every writ of error or appeal,
the first and [fJundamentdl question is that of [jJurisdiction.
Jurisdiction of the reviewing court's and then

the court's

from which the record comes from.': The'reviewing court is [bound]
to ask and answer for itself, its Articial III [jJurisdiction even
when not otherwise suggested, and without respect to the relation
of the parties to it." See Steel Co. v. Citizens For Better Env.,
523 U.S. 83, 140 L. Ed 2d 210, 118 S. Ct. 1003 (1998); also see
Mansfield, C. & L. M. R. Co. v. Swan,' 111 U.S. 379," 382

28 L. Ed

462, 4 S. Ct. 510 (1884); also accord Capron v. Van Noorden, 2
Cranch 126, 2 L. Ed 229 (1804).
In accordance with these authorities'and the requirement that
[jJurisdiction be established as a "[thresjhold" matter, and this
analysis is 'inflexible and without exception', on every writ of
error or appeal, your Petitioner argues that Judge Baldock.'s
April 5, 2013, Order and Judgment, is "tentative" and therefore,
amounts to nothing more than an "hypothetical judgment"- which
is the same thing as an "advisory opinion" because the panel simply
"hypothesized" the Kansas District Court's stautory [jJurisdiction
8.

based on the facts the

court outlined.in its "Procedural Posture"

section in the April 5, 2013, Order and Judgment. See (Exhibits A).
Your Petitioner s direct criminal appeals review has
now
been an unresolved matter for the last 7%
S years, due to the panel's
handling over your Petitioner s appeals proceedings,
Your Petitioner, further argues that this United States
Supreme Court should find or conclude.that he has provided enough'
"overwhelming" evidence attached hereto as "Exhibits B & C",
for
this court to agree with your Petitioner that his
case presents
an

[exceptional circumstance"

and "[extraorjdinary" cause for this

United States Supreme Court to exercise Us statutory "supervisory"
appellate power pursuant-tp, 28. U.S..C.--8 1651fa) under the "All
Writs Act".

This is so, because, there can be no doubt that both the ;
Tenth Circuit Court of Appeals and the Kansas District Court's
Articial III [jjurisdictional limitations is a [probljem in
your Petitioner's criminal case in accordance with Judge J. Thomas
Marten's November 28, 2011, -"[disjmissal Order",
attached hereto
as Exhibits "C".
Likewise, Judge Baldock's April 5, 2013, Order and Judgment,
currently being challenged presents an "[exjtraordi nary" matter for this court s supervisory appellate
power pursuant-to 28 U.g.-C
j-i651.CfL) ^der the "All Writs Act" because the Order and
Judgment is "tentative" (i.e., its fails to [f]irst show the .
court of review [jjurisdiction) and therefore,
your Petitioner's
direct appeals proceedings remains unresolved.
The principles and usages of law, warrant, that a Writ of
[Mjandamus and/or [Pjrohibiti
°n shall issue- (1). where the cause
9.

■'

does not originally belong to the inferior court; and (2). where
the collateral matter arising from the cause is not within the
[,j jurisdiction of the inferior court. See Marbury v. Madison,
1 Cranch 137, 173-180, 2 L Ed 60, 72-74.
Ruling wrongly that a specified case is within some' general
subject of its jurisdiction,, a court commits error. Attempting
to exercise jurisdiction over some subject matter when it has
none, the inferior court [usurps] power. While the error must be
corrected, by appeal.; the "[usurpation]" may be prevented by a Writ of
Prohibition. For a court to. pronounce upon the meaning or the
constitutionality of a state or federal law when it has no lawful
[jjurisdiction to do so isby very definition, for a court'to
act "[ulfra] vires." See Steel Co., supra,118 S. Ct. 1003 (1998).
Since the Articial III [jjurisdiction question is always an
antecedent question that must be resolved separately and at the
outset of every appeal, from the merits of the controversy, there
can be.no doubt that Judge Baldock's April 5, 2013,' Order and
Judgment, is [vjoid. The three judges appellate panel whom affirmed
the Kansas District Court's April 17, 2012,. criminal judgment of
conviction against your Petitioner was [obligjated, as a matter
of the case and controversy for review before the court, to
inspect the proceedings of the Kansas, District Court's in order
to verify the lower court's Articial III [jjurisdictional limits.
The Articial!Ill [jjurisdictional question is not a
[disjcretionary matter for which the three judges appellate panel
could simply disregard in favor of proceeding
merits of the questions presented on appeal.
10.

to determining the

Your Petitioner

!
i

argues that since the April 5, 2013, Order and '
Judgmant, currently being challenged, Is an "[usurJpation" of

i

Judicial power because the three judges appellate panel [fJailed
to inquiry into the Kansas District Court
s Articial III
[jurisdiction, before, the panel determined
the questions
presented for review on the [rajerit
s and terminated your Petitioner's
direct appeals review against
him, Judge Baldock's April 5, 2013,
Order and Judgment, frustrates
this United States Supreme Court's
[certiorari J.. [j Jurisdiction pursuantrto 28 U.S.C
§ 1254(1) to : /:
review, on the merits,
any of-the. claims raised by .your Petitioner's
trial/appellate counsel in his .opening - appellate
s brief, thus the'
April 5,.2013,
, it
0rder and.Judgment-,, .offends: [f Jundamental
principles of the "[sepjaratipn of J
powers" doctrine. See Steel Co.':
supra, 523 U.S. 83 .118 S. Ct.
1003 (1998).
Judge Baldock's April 5, 2013,
Order and Judgment, is not
just simply a case of a "[rJeversible
error which can be corrected
by way of [certiorari] review, it is
an "[usurJpation" of judicial ^
power which may be. corrected by way-of these
extraordinary writs.
^ee Ex parte, Commonwealth of Virginia. 25 L. ed 677,
100 U.S.
313 (1880); also see Ex parte Bain,
121 U.S. 1, 30 L. ed 849, 7
S. Ct. 781 (1887).
Lastly, your Petitioner

argues that because both the Tenth
Circuit Court of Appeals and the Kansas District
Court's, April 5,
2013, and April 17,
2012, Orders and Judgments, are "[vjoid"
and an absolute "[nulljity" for want of

an [injdictment in the
Kansas District Court, in your Petitioner
s criminal matter at
issue, in light of Judge J. Thomas Marten
's November 28, 2011,
[Orjder of " Dismissal" (see Exhibits C),
this United States
11.

i

!

Supreme Court supervisory appellate powers pursuant-to 28 U.S.C.
§ 1651(a) under the "All Writs Act" would be in aid of this
, Court's [jjurisdiction to revise or correct both lower court's
authority to issue the judgments they have in_your Petitioner's
criminal cause;

Rogers v. United States, et al., 6:10-CR-

10186-JTM-01. See The' Alicia, 19 L.Ed 84, 7 Wall 571 (1869).
Your Petitioner argues that his questions and concerns
about the [jjurisdictions of both lower court's Orders and
Judgments, in his criminal case, is properly a [suffjicient
case to be resolved by this United States Supreme Court during
this current proceedings, in order to confine both the Tenth
Circuit Court of Appeals and the .Kansas District Court,. to a lawful
exercise of their prescribed judicial [^jurisdictions. See 28 U-.S.C.
§ 1651(a)< also see Marbury v. Madison, supra, 1 Cranch 137.

PRAYER FOR RELIEF
It is now [prayedj for by your Petitioner that this United States
Supreme Court:

mi

[commandj" Judge Bobby R. Baldock, a Circuit

Court judge in the Tenth Circuit Court of Appeals, to [rejtain
[jjurisdiction of your Petitioner's direct criminal appeals review
proceedings pursuant-to 28 U.S.C. § 1291. and to [firstj properly
ask and answer the Articial III [jjurisdictional question, which
every appellate court has a special [objligation to satisfy itself
of, even when not raised or otherwise ready to be concede by a
party on appeal, of the Kansas District Court's criminal statutory
[jjurisdiction in your Petitioner's criminal case. "
Alternatively, your Petitioner [praysj this United States
12.

Supreme Court will take action in this proceedings, and
upon
the record of the proceeding that
took place in the Kansas District
Court, attached hereto as Exhibits "B", and upon the "[disJmissai."
[Ojrder, of the Kansas District Court's entered on November 28,
2011, "[terminating" your Petitioner's criminal case no. 6:10-CR10186-JWB-01

at the AUSA's request via, a November 28, 2011,

"[Mojtion to [Djismiss" (Exhibits C), "[command]" Judge Baldock
to [vacate] the April 5, 2013, Order and Judgment, "affirming" the
Kansas District Court s April 17, 2012, criminal judgment of
conviction, and [rjeverse, the April 17, 2012, criminal judgment
Of conviction, for "[want] of an [injdictment" or Articial III
statutory [j jurisdiction in accordance with the November 28, 2011,
[disjmissal Order, and Judge; Baldock must order
your Petitioner
to be released from his unlawful and illegal imprisonment."
RESPECTFULLY PRAYED FOR,

"i

can't breath",
iP-7iT«Kmrl / d.f
RAYMOND L. Rogers/Pro se.

§1746 UNSWORN DECLARATIONS UNDER PENALTY OF PERJURY
I declare (or certify, verify, or state) under penalty of

perjury

that the foregoing is true and correct.
Executed on November ,4, 2020

Signature,
—J

.njaauM/jf / jf.

j

/\

RAYMOND L. ROGERS. Pro se

13.

%

f

4*

I

!

r\

%

/

\

EXHIBIT
-/•
:

T

(

\I

